0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Kevin Scott
Karsjens; David Leroy Gamble, Jr.; Kevin John
Devillion; Peter Gerard Lonergan; James Matthew
Noyer, Sr.; James John Rud; James Allen Barber;
Craig Allen Bolte; Dennis Richard Steiner; Kaine
Joseph Braun; Christopher John Thuringer; Kenny S.
Daywitt; Bradley Wayne Foster; Brian K. Hausfeld,
and All Others Similarly Situated v. Tony Laurey;
Kevin Moser; Peter Puffer; Nancy Johnston; Jannine
Hebert; Ann Zimmerman, in Their Individual and
Official Capacities, was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent Next
Day Service and e-mail to the following parties listed
below, this 22nd day of July, 2021:
Scott Hiromi Ikeda
Adam H. Welle
Aaron Edward Winter
Attorney General's Office
Suite 1400
445 Minnesota Street
Saint Paul, MN 55101-2127
(651) 296-9412
scott.ikeda@ag.state.mn.us
a dam. welle@ag.state.mn. us
aaron.winter@ag.state.mn.us

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Daniel E. Gustafson
Counsel of Record
Gustafson Gluek PLLC
Canadian Pacific Plaza
120 South Sixth Street, Suite 2600
Minneapolis, MS 55402
(612) 333-8844
dgustafson@gustafsongluek.com
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 22, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

AMY TRIPLETT MORGAN

Attorney at I.aw
Notary Public, State ol Ohio
My Commission Has No Exr
Date. Section 147. 03 (

